<html>
<title> - THE NONPOINT SOURCE MANAGEMENT PROGRAM UNDER THE CLEAN WATER ACT: PERSPECTIVES FROM STATES</title>
<body><pre>[Senate Hearing 116-157]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 116-157

   THE NONPOINT SOURCE MANAGEMENT PROGRAM UNDER THE CLEAN WATER ACT: 
                        PERSPECTIVES FROM STATES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 8, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works






              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






        Available via the World Wide Web: http://www.govinfo.gov 
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-944 PDF                 WASHINGTON : 2020 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director 
              
              





              
              
              
              
              
              
              
              
              
  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 8, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Zygmunt, Jennifer, Nonpoint Source Program Coordinator, Wyoming 
  Department of Environmental Quality............................     7
    Prepared statement...........................................    10
Grumbles, Hon. Ben, Secretary of the Environment, Maryland 
  Department of the Environment..................................    43
    Prepared statement...........................................    45
    Responses to additional questions from Senator Cardin........    57
    Response to an additional question from Senator Sanders......    61

                          ADDITIONAL MATERIAL

Statement by the Association of Clean Water Administrators, 
  January 9, 2020................................................    80
Letter to Senators Barrasso and Carper from the Clean Water for 
  All Coalition et al., January 22, 2020.........................    84
Letter to Senators Barrasso and Carper from the Mississippi River 
  Collaborative, January 22, 2020................................    87
Letter to Senators Barrasso and Carper from the American 
  Fisheries Society, January 23, 2020............................    98

 
   THE NONPOINT SOURCE MANAGEMENT PROGRAM UNDER THE CLEAN WATER ACT: 
                        PERSPECTIVES FROM STATES

                              ----------                              


                       WEDNESDAY, JANUARY 8, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Braun, 
Rounds, Sullivan, Boozman, Wicker, Ernst, Cardin, Merkley, 
Gillibrand, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    I would like to wish you all a happy new year. Welcome back 
to everyone on the Committee.
    As Chairman, I look forward to another very productive 
year.
    I will tell you, Senator Carper, I have this incredible 
list of things that we have done for the last year, working 
together in partnership, very successful. The staff has put it 
together, and it shows that we are a Committee that works and 
gets things done.
    Last year, we advanced bipartisan transportation 
infrastructure legislation. This year, the full Senate will 
pass that legislation, so we can build better roads and bridges 
and highways. We will be working on legislation to support 
critical water infrastructure as well, such as dams and locks 
and levees.
    We will also continue to work together to advance 
legislation and protect America's air, our water, our wildlife.
    This Committee has a proven track record of working across 
the aisle to get important legislation done, and I look forward 
to having that continue in 2020 and working in partnership with 
you.
    Today's hearing is a great way to start the year by 
examining a popular program that improves water quality through 
cooperation, not regulation. This program is the Nonpoint 
Source Management Program under the Clean Water Act. 
Established in 1987, the program recognizes that controlling 
water pollution is not a one size fits all issue.
    Nonpoint sources are ones that do not come out of a pipe or 
a confined source. They are everywhere, runoffs from roads in 
urban

[[Page 2]]

areas, to water from agricultural operations, to sediment from 
construction sites, and eroding stream banks.
    For this reason, Congress correctly recognized that the 
best way to address these nonpoint source pollutions is to 
empower States. States come up with solutions that work for 
them. Washington provides grant funding for States to implement 
their programs. States must secure our funding to leverage 
those Federal dollars.
    The program is more than 30 years old. It has seen many 
successes, and we want to make sure it is working as 
effectively as possible. That is why we are having this hearing 
today.
    We are honored to welcome two experts from very different 
parts of the country, but both who realize just how very 
important this is.
    We have from Wyoming, Jennifer Zygmunt, who is the Nonpoint 
Source Program Coordinator at the Wyoming Department of 
Environmental Quality. Wyoming has some of the cleanest water 
and air and land in the country. Wyoming is the home of the 
headwaters that supply water throughout the country. The four 
major river basins fed by Wyoming are the Missouri-Mississippi, 
the Green-Colorado, the Snake-Columbia, and the Great Salt 
Lake.
    Wyoming also uses a variety of industries that rely on 
water supply and re-use, including energy production, ranching, 
and farming. Effective conservation and cleanup of water in 
Wyoming requires flexibility plus a deep understanding of our 
water systems. The Nonpoint Source Program was designed to do 
just that, to give States flexibility to manage water and to 
reduce pollution in a way that is best suited to the States' 
needs.
    From 1999 to 2018--about 20 years--Wyoming funded 164 
projects under its Nonpoint Source Management Program. As a 
result of the program, 15 streams and river segments--more than 
187 miles in length--are now clean.
    In 2018, Wyoming completed six projects. Those projects 
reduced sediment, reduced nitrogen, reduced phosphorus and E. 
coli loading in Wyoming's rivers and streams. Sediment loading 
alone fell by more than 40,000 tons per year.
    The USEPA has published a number of Wyoming's nonpoint 
source projects as model success stories. One EPA published 
example occurred near my hometown of Casper, Wyoming, where 
yesterday the wind was blowing 79 miles an hour. And they 
closed down the Federal Government because they thought it 
might snow.
    [Laughter.]
    Senator Barrasso. Well, who are these people?
    Parts of Wyoming have naturally high levels of selenium in 
the soil. Several years of cooperative work between the Natrona 
County Conservation District, the State of Wyoming, local 
landowners, and a number of other organizations led to selenium 
levels falling in the North Platte River. Selenium levels in 
the river dramatically decreased due to the education, due to 
outreach, and voluntary implementation of best management 
practices.
    These efforts included converting hundreds of acres from 
flood irrigation to sprinkler irrigation and replacing open 
irrigation ditches with underground pipelines. A 36 mile 
segment of the North Platte River now meets water quality 
criteria for selenium.

[[Page 3]]

I look forward to hearing more about Wyoming's successes 
through this program during today's testimony.
    I also look forward to hearing from Secretary Ben Grumbles 
from Maryland. We have two Maryland Senators on this Committee. 
This is a very critical Committee, and we are happy to have you 
here to testify.
    I know that both of the Senators from Maryland are here to 
listen very closely to what you have to say, because Maryland, 
as you know and this Committee is constantly reminded, is home 
to the Chesapeake Bay. Maryland has critical challenges. I know 
that, Secretary Grumbles, you will discuss those.
    Now I would like to turn to Ranking Member Carper for his 
opening remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    I just want to say I approve this message with respect to 
your opening statement. I am very proud of what we accomplished 
last year. I want to shout out to our bipartisan staff, and not 
just the majority and minority staff, but the folks who work 
for each of our members on our Committee of handling the 
environmental portfolio.
    We got a lot done. We have a few things still left to do on 
our table and on our list, but we look forward to working on 
all of those.
    I want to welcome our witnesses.
    Jennifer, have you always been a Zygmunt? I would hold onto 
that name. I bet you have some great nicknames.
    Any favorite albums by David Bowie? One comes to mind: 
Ziggy Stardust. There is a lot of good fun to be had with your 
name, but we will play it straight here today.
    And Ben Grumbles, that is a good name to play with as well.
    [Laughter.]
    Senator Carper. We are not going to go there, because Chris 
Van Hollen told me that you never grumble; you are just a 
delight to be around. You are our neighbor on the Delmarva 
Peninsula, and we love working with you.
    Right behind me is Christophe Tulou, who used to be my 
Secretary of the Department of Natural Resources. You may 
recall I was Governor. We greatly value our partnership with 
your State.
    I suspect we all know that our States are beset by 
continuing drinking water challenges: dead zones in the Gulf of 
Mexico and the Chesapeake Bay, hazardous algae blooms off the 
coast of Florida, and in our Great Lakes, continuing non-
attainment of water quality standards in rivers and lakes and 
estuaries in every State across our Union.
    These events are often devastating, not only to ecosystems 
and to human health, but also to local economies. For example, 
a 2009 study published in the Journal of Environmental Science 
and Technology calculated the combined cost of freshwater 
nutrient overloads in the U.S. at $2.2 billion annually. I will 
say that again: $2.2 billion annually--I had no idea it was 
that large--with losses in

[[Page 4]]

recreational water use and waterfront real estate values and 
drinking water.
    In response to a 2011 toxic algae bloom in Lake Erie--
Toledo's primary drinking water source--the city issued a 3 day 
drinking water ban that affected over a half-million residents. 
The city has since invested more than $1 billion on water 
treatment upgrades and pollution remediation projects.
    Florida spent $17.3 million in emergency funding in 2018 in 
response to harmful algae blooms; $17.3 million.
    In July 2019, massive harmful algae blooms off the Gulf of 
Mexico coast forced Mississippi to close all of its beaches. 
Can you imagine what that would be like, to close all of our 
beaches in Delmarva?
    We know these challenges well in our home States of 
Delaware and Maryland and our southernmost county in Delaware, 
Sussex County, which is home to more chickens than any other 
county in the Nation, I think. Last time we counted, 400 
chickens for every person in Delaware, and a lot of them are in 
Sussex.
    With the robust production of corn, soybeans, and 
vegetables to feed the chickens, constituents must contend with 
unhealthy levels of nitrate in their well water too often. That 
nitrate is a legacy of decades of intensive agriculture, and 
until the last couple of decades, a lack of understanding and 
appreciation for the adverse effects this nutrient can have on 
the health of our babies and the quality of our invaluable 
coastal waters.
    And along and around our inland bays, too many of those 
same Delawareans are also living with highly polluted 
estuaries. They bloom with algae in warmer months, resulting in 
dead zones, occasional toxic algae blooms, and consequently, 
fish kills and stench.
    Though several Federal programs exist to mitigate these 
sources of nonpoint source pollution, Section 319 of the Clean 
Water Act is our primary defense against this pollution.
    Given the very real ecological, economic, and public health 
impacts associated with nonpoint source pollution, we either 
must do a better job with the tools we have or find more 
effective and expeditious means to reduce the nutrient sediment 
and other pollutants that flow off of our lands and into our 
waters. Maybe we need to do both.
    I am particularly interested to learn how well the Clean 
Water Act Section 319 Program and other provisions of law 
actually arm our States in their efforts to meet their water 
quality goals, especially in the Chesapeake Bay watershed. As 
an upstream State in that watershed, Delaware is acutely aware 
of Maryland's and Virginia's expectations that we all do our 
part to reduce pollution in our States, pollution loading, and 
assist with the restoration of the iconic treasure that is the 
Chesapeake Bay.
    At one point, Delaware was not doing enough. We are doing a 
whole lot better now, and can we do more? Yes, probably so, and 
we will.
    But it is time for some other upstream States like the 
Commonwealth of Pennsylvania to step up and clean up the water 
that they send down the Susquehanna River to the Chesapeake. 
This is essential, as our downstream neighbors have little 
recourse if up

[[Page 5]]

stream States fail to act on and meet their good neighbor 
expectations.
    In that regard, Mr. Chairman, our States of Delaware and 
Wyoming share similar a circumstance. We lie at the headwaters 
of rivers and streams that are critical to the health of 
ecosystems and communities downstream. Given that nonpoint 
source pollution is the No. 1 cause of non-attainment across 
our country, I am also very interested to learn whether Section 
319 is keeping our waters clean and serving the needs of 
downstream communities and neighboring States.
    Let me close with this. While the 319 Program has certainly 
resulted in demonstrable successes, we continue to struggle 
with many of the same nonpoint source pollution problems that 
we did decades ago.
    More troubling, our changing climate has made the problems 
even worse. According to a recent CRS report, scientific 
research indicates that in recent years, the frequency and 
geographic distribution of harmful algae blooms have been 
increasing nationally and globally.
    Climate change is exacerbating these problems as heavier 
and more frequent rainfall increases runoff into our rivers.
    Clearly, we have plenty of work ahead of us. We must make 
sure our nonpoint source pollution programs are able to respond 
to our new climate reality, and I hope this hearing will give 
us insights into how to do both.
    Thank you, Mr. Chairman, and welcome.
    Senator Barrasso. Thank you very much, Senator Carper.
    We are now going to hear from our witnesses.
    I am pleased to introduce Jennifer Zygmunt, who is the 
Nonpoint Source Program Coordinator for the Wyoming Department 
of Environmental Quality. A native of Casper, she spent some 
time in New Mexico before heading back to Wyoming, and we are 
very glad that she did.
    She graduated from the University of Wyoming in 2003 with a 
degree in botany and a minor in environment and natural 
resources. After graduation, she joined the department, where 
she wrote permits under the State's Clean Water Act Discharge 
Permit Program, and she did this for 5 years. For the last 11 
years, she has managed the Nonpoint Source Program.
    We thank you for your public service in protecting water 
quality for all the people of Wyoming. We are honored that you 
are here to testify today before the Committee and to share 
your expertise with us. I know you have much to tell us about 
Wyoming's strong record of environmental protection and 
restoration through its nonpoint source program, and we look 
forward in a few moments to hearing your input on how we in 
Congress can make sure Washington works even better with 
Wyoming and other States to protect our Nation's water quality 
in the future.
    Before you start, we are also honored to welcome Mr. Ben 
Grumbles, Maryland's Secretary of the Environment. We have 
strong Maryland representation on this Committee.
    Senator Cardin, as the senior Senator from Maryland, would 
you like to say a few words first? And then I will be happy to 
call on Senator Van Hollen as well.
    Senator Cardin. Well, Mr. Chairman, first of all, thank you 
very much for the courtesy of being able to introduce Ben 
Grumbles, with my colleague, Senator Van Hollen. Particularly, 
thank you for holding this hearing on Section 319. Wyoming and 
Maryland indeed have a common need for clean water, and we are 
proud of the actions of both of our States as leaders on clean 
water.
    I am delighted to welcome Ben Grumbles, Maryland's 
Secretary of Environment. His duties include serving as 
Chairman of the Governor's Chesapeake Bay Cabinet and Chair of 
the Regional Greenhouse Gas Initiative, RGGI. Ben has served as 
the Assistant Administrator for Water at the U.S. Environmental 
Protection Agency from 2003 to 2009, and as Director of the 
Arizona Department of Environmental Quality, and as 
environmental counsel and a senior staff member of the 
Transportation and Infrastructure Committee and Science 
Committee in the U.S. House of Representatives.
    So he has a great deal of experience at the State level, 
but also understands the Federal level from his experience 
there, and both branches of Government, the executive and 
legislative branches. He also was President of the U.S. Water 
Alliance, an environmental non-profit organization that 
educates the public on the value of water and the need for 
integrative and innovative solutions.
    Section 319, as we will hear today, is a vital source of 
resources for us to deal with nonpoint source management. In 
our State, it is important in regard to how we deal with 
developers, local officials, and farmers to deal with water 
quality. Both the Chairman and Ranking Member have mentioned 
the Chesapeake Bay, and Section 319 provides sources for help 
in dealing with our commitment to the Chesapeake Bay.
    One more word about Ben Grumbles and the Bay program. He is 
our leader in the State on the Bay, and he is following in a 
great tradition of really nonpartisan leadership in our State 
in our commitment to the Chesapeake Bay. He has shown 
incredible innovation and leadership, and we are very proud of 
what he has been able to demonstrate that we can do in 
Maryland, working with our partners in the surrounding States.
    The key to the Chesapeake Bay Program was that it was 
developed by the local governments. It started 40 years ago, 
and it was from the ground up. It was not from the Federal 
Government down. It was the local governments that came up with 
plans based upon best science and the political realities of 
their State as to what they could do to save the Chesapeake 
Bay.
    Then they joined together. The States surrounding the 
Chesapeake Bay said, We have got to do this collectively. It 
was later that we involved the Federal Government. We involved 
the Federal Government for two main reasons, and I think 
Secretary Grumbles is very much aware of that.
    First of all, we need help funding, funding sources. The 
Chesapeake Bay has been the beneficiary of the direct funding 
from the Federal Government as well as programs such as Section 
319. But we also need someone to make sure that all 
stakeholders--and that means the farmers, the developers, the 
local governments, and all regions, all States--were doing 
their fair share, so that we had a committed program that all 
of us were doing our share.

[[Page 7]]

    That is where the enforcement by EPA has become so 
critically important, including the TMDLs. Secretary Grumbles, 
I think, can speak to how all this has worked well and the 
progress we have made, but we need all of our tools working 
together, and that is why Section 319 is a very important 
program and one that I hope, as we look at reauthorization 
programs, how we can expand and improve Section 319.
    I thank Secretary Grumbles for being here.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Well, with respect to the accolades about Secretary 
Grumbles, I am just going to say, amen to that.
    Thank you and our partners around this table on both sides 
of the aisle for working with Senator Cardin and myself, 
Senator Capito, and other members of the Bay States to provide 
the support that we need as a country to this national 
treasure. Secretary Grumbles has been a big part of that.
    We will get into this a little more later, but both Senator 
Cardin and Senator Carper mentioned the Chesapeake Bay 
Agreement and the need to enforce it. We have voluntary tools, 
but we decided in the Bay Agreement that when necessary, we 
ultimately need to have more leverage and more enforcement to 
make sure that all of the members of that multi-State 
jurisdiction take their responsibilities seriously and meet 
their reduction goals.
    Thank you, Mr. Chairman, for having this hearing. This is a 
very important voluntary program, Section 319. We need to use 
all the tools at our disposal when we are addressing these 
issues.
    Thank you.
    Senator Barrasso. Thank you, Senator Van Hollen.
    I want to remind the witnesses that your full written 
testimony will be made part of the official hearing record, so 
we ask that you try to keep your statements to 5 minutes, so we 
have time for questions. I look forward to hearing from both of 
you.
    Ms. Zygmunt, please begin.

    STATEMENT OF JENNIFER ZYGMUNT, NONPOINT SOURCE PROGRAM 
    COORDINATOR, WYOMING DEPARTMENT OF ENVIRONMENTAL QUALITY

    Ms. Zygmunt. Good morning, Chairman Barrasso, Ranking 
Member Carper, and honorable members of the Committee. Thank 
you for the opportunity to provide testimony for the Wyoming 
Department of Environmental Quality Nonpoint Source Program, 
which I have had the privilege of managing for the past 11 
years.
    You will find detailed background information on our 
program in my written testimony. For more information on recent 
program accomplishments, I encourage you to review our 2018 
annual report, which is available online in an RJAS story map 
format.
    Overall, the Wyoming DEQ believes that the Section 319 
program is functioning effectively. We would like to highlight 
several aspects of the program that we feel are important to 
its success.
    First, national program guidance has provided sufficient 
flexibility to allow Wyoming to manage its nonpoint source 
program according to the needs of our State.

[[Page 8]]

    We appreciate areas of flexibility that were incorporated 
into the guidance during its 2013 revision. As one example, the 
increased ability to protect healthy waters in addition to 
restoring impaired waters has helped support important river 
restoration projects in Wyoming, expanding partnerships with 
Wyoming Game and Fish Department, conservation districts, and 
Trout Unlimited. We continue to advocate for revisions to 
program guidance that support flexibility so that States can 
best address their priority water quality issues.
    Second, the DEQ believes that a voluntary approach to 
nonpoint source pollution management is the most effective 
approach. While often challenging, bringing stakeholders 
together in a spirit of collaboration promotes partnerships, 
information sharing, and innovation. Projects with multiple 
benefits are the most likely to succeed in the long term, and 
the voluntary approach helps identify such win-win situations.
    As one example, over 36 miles of the North Platte River 
were recently restored to meeting water quality standards. 
Converting flood irrigation to sprinkler irrigation in the 
watershed not only improved water quality, but it increased 
agricultural production, and it saved farmers money by reducing 
water usage and labor costs.
    The importance of partnerships and local leadership and the 
successful voluntary approach cannot be overstated. Finding 
common goals with other agencies, organizations, and 
individuals is key to success.
    Some of DEQ's most important partnerships are those with 
the Wyoming Association of Conservation Districts, our 34 
individual conservation districts, and local members of those 
districts. As local government entities with the authority to 
lead watershed planning and restoration efforts, conservation 
districts sponsor the majority of our 319 projects, and they 
provide an important link between the DEQ and our local 
stakeholders.
    Finally, though a challenging part of the program, the 
collection of data to evaluate the program's effectiveness is 
important. The program's primary measure of success--the number 
of water bodies restored to meeting standards--emphasizes 
accountability and provides a meaningful communication tool 
with the public.
    While the DEQ believes the program is operating 
effectively, we respectfully offer the following 
recommendations for further program improvement. Of highest 
priority, we recommend that EPA evaluates ways to streamline 
the 319 grant application and award process to avoid delays in 
awarding grants to States. Having a definitive timeframe for 
when grants will be awarded will improve our ability to notify 
sponsors of anticipated project start dates, allowing sponsors 
to better plan projects and coordinate their non-Federal 
sources of match.
    We appreciate that EPA Region 8 has heard our concerns on 
this subject and is taking steps to determine if improvements 
can be made. We encourage that this conversation happens at the 
national level as well.
    Our second recommendation is that if the 319 allocation 
formula is reevaluated, it needs to be done with careful 
consideration and input from all States. While changes to the 
formula would benefit some States, they could be detrimental to 
others. The DEQ has in

[[Page 9]]

cluded in its written testimony some suggested factors for 
consideration if the formula is reevaluated.
    Finally, the DEQ recommends that nationally, EPA and NRCS 
continue to gather and evaluate State feedback to determine how 
the Federal National Water Quality Initiative can be improved. 
The DEQ's partnership with our Wyoming NRCS is a critical 
partnership for us. With the common goal of water quality 
improvement, both agencies are committed to working together to 
improve delivery of conservation programs, including the 
National Water Quality Initiative.
    While the initiative has resulted in positive outcomes in 
Wyoming, new requirements under the initiative have put 
additional burden on limited DEQ staff, and it has been 
challenging to meet those requirements. Further national 
initiatives with NRCS should stem from significant outreach to 
States and should allow flexibility in how States best pursue 
partnerships with their NRCS counterparts.
    Thank you again for the opportunity to be here, and I look 
forward to your questions.
    [The prepared statement of Ms. Zygmunt follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Barrasso. Well, thanks so very much for your 
thoughtful testimony.
    We will have questions in a moment, but first I would like 
to turn to Mr. Grumbles.
    Please proceed.

 STATEMENT OF HON. BEN GRUMBLES, SECRETARY OF THE ENVIRONMENT, 
             MARYLAND DEPARTMENT OF THE ENVIRONMENT

    Mr. Grumbles. Thank you very much, Mr. Chairman, and 
Ranking Member Carper. What an honor it is to appear before you 
today.
    Our Nation is stronger when the Senate Environment and 
Public Works Committee is working together in a bipartisan 
manner for environmental progress. The 319 Program is an 
outstanding example of a critical effort that involves 
partnerships, nationally, State based, regionally, and locally.
    It really is an honor to appear before you. I am Governor 
Hogan's Environment Secretary for Maryland, and as very kindly 
mentioned by Senators Cardin and Van Hollen, I also get to 
serve as the head of the Chesapeake Bay Program Partnership's 
Principal Staff Committee of Environment and Agriculture and 
Natural Resources Secretaries.
    This hearing is important because it gives us an 
opportunity to tout what is working very well and also explore 
tweaks and possible revisions to make this program even 
stronger. Because the Nonpoint Source Program is only going to 
grow in importance and need in meeting our clean water 
fishable, swimmable goals.
    I also want to emphasize, Mr. Chairman, how proud it is for 
me to appear before a committee where Senator Capito, Senator 
Boozman, everyone works together to put funding in the right 
place. We are so appreciative of the recent efforts to boost 
the funding of programs, including for the Chesapeake Bay.
    Senator, I work well with Austin Caperton, and Senator 
Carper, you know that Shawn Garvin is a real leader, and we all 
work together to make progress for the Chesapeake Bay Program.
    But Mr. Chairman, the 319 Program is an integral component 
to local, State, and regional progress. So it is an honor to 
appear before you on that.
    Governor Hogan, as the Chairman of the National Governors 
Association, puts a real emphasis on infrastructure, a 
foundation for success, advancing repair, enhancement, and 
modernization of our Nation's infrastructure, including aging 
water systems, through innovative public-private partnerships, 
smarter technologies, and a strong focus on resilience. A key 
to successful infrastructure programs is a holistic, integrated 
approach that also includes increased focus and attention on 
runoff and nonpoint source pollution.
    One of the things I really want to emphasize here is that 
in Maryland, we see the value of local progress for clean water 
and coordinating on a regional basis. The Governor and the 
State of Maryland together in a totally bipartisan manner have 
made strong commitments. We are seeing real progress for the 
Chesapeake Bay, not only in reducing the point sources that are 
regu

[[Page 44]]

lated under the Clean Water Act, but also the nonpoint source 
pollution.
    While we have made significant progress in our Bay 
restoration efforts, we will not be able to fully restore the 
health of the Bay, a national and ecological treasure with 
economic value exceeding $1 trillion, unless all of our State 
partners and the District of Columbia also meet their 
commitments. We must ensure that we all factor in the impacts 
of climate change into our efforts to reduce nonpoint source 
pollution, as changes in rainfall patterns that increase runoff 
into the Bay threaten to undermine progress.
    The other point I want to make is that 319 is something to 
be proud of. My hat is off to EPA and USDA and other Federal 
agencies who make it work well. It is a holistic approach to 
tackle water pollution problems on a watershed basis.
    We value partnerships. It is not just with Federal 
agencies. It is with nonprofit organizations, like the 
Chesapeake Conservancy, with their Precision Conservation 
Initiative, and the Nature Conservancy, and other organizations 
that team up with States, and Trout Unlimited, as Jennifer 
mentioned.
    But for us in the Chesapeake Bay, the key is to ensure that 
we focus on what is really needed. For us, the nonpoint source 
and stormwater challenges are among the greatest, and that is 
why we need all of the States and the EPA to step up and play 
their appropriate roles.
    I want to emphasize the role of the EPA. Maryland considers 
EPA to be the key to our partnerships for the Chesapeake Bay 
and the TMDL.
    Pennsylvania in particular has fallen short--woefully 
fallen short--and so we would strongly encourage additional 
funding for nonpoint source pollution for all of the States, 
streamlining in the process, but also for the interstate 
umpire, the EPA, to have the courage to step up and use the 
regulatory backstops that are available. It is not an 
aspirational role; it is an enforceable TMDL. We think that 
with a stronger 319 Program, and with EPA stepping up, that 
would be very important.
    I would just like to emphasize, Mr. Chairman, that Maryland 
is fully prepared and will push the EPA to use its appropriate 
authority so that we can all make progress. We look forward to 
the discussions about how to continue to improve the 319 
Program.
    Thank you for your leadership on this matter.
    [The prepared statement of Mr. Grumbles follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Barrasso. Thank you for your testimony.
    Thank you both for your testimony.
    We will start with some questions.
    If I could start with you, Ms. Zygmunt, EPA regularly 
publishes success stories of particularly effective nonpoint 
source projects, nationally recognized Wyoming's 14 projects, 
including the one you mentioned with the North Platte River 
restoration project. In your experience, and you have done this 
for a while, what are the key factors in designing a project 
and implementing a project that make a project really 
overwhelmingly successful?
    Ms. Zygmunt. Yes, Mr. Chairman. Thank you for the question. 
That is a very good question, and one that we ask ourselves 
often, and it is a question that needs to be asked often. Why 
do we see success? How can we build that success?
    In terms of the ingredients that make a successful project, 
in my experience in Wyoming, first, you need that local 
champion, whether it is an individual, an organization, an 
agency that sees the need for some solutions to a problem and 
takes the initiative to make it happen.
    Part of my job is building that local capacity so that we 
have these champions on the ground. Often in Wyoming, that is a 
conservation district, but it may also be a nonprofit 
organization, or other folks as well.
    Those champions, water quality might be their focus, it 
might not, but they need to look beyond water quality. What are 
the other benefits that bring in partners into the watershed to 
make improvements, these win-win situations? Perhaps it is 
helping out the agricultural producers, perhaps it is helping 
hunting groups, recreation groups, fishing groups.
    There are many reasons why people will come to the table. 
Water quality is just one of the reasons, and I think you need 
to find those projects where we are benefiting water quality, 
but we are finding solutions to other problems at the same 
time.
    When you can bring everybody to the table, you build those 
partnerships which are critical for coordination. You need that 
coordination to make the dollars on the ground go further, make 
sure you are not duplicating efforts, and then you just need 
commitment over time.
    This is a point that again, in my experience, it often 
takes decades to start seeing improvements from our projects. 
It is not always an immediate response. Sometimes you have to 
try many different practices before you find the right 
combination that results in water quality improvement.
    Some of the nonpoint source pollution problems that we deal 
with in Wyoming are legacy impacts going back hundreds of 
years, and they are not going to be fixed overnight. It takes 
time to mobilize the resources, it takes time to implement the 
projects, and it just takes time to work with nature and let 
those projects become effective and get the data to show 
effectiveness.
    And that being the last component of a successful project 
is that you have to monitor, you have to go out and look for 
data. I think we have to get beyond the point of just hoping 
that what we are doing is working. It is an important part of 
the program that we

[[Page 64]]

evaluate it whether it is water quality data, range data, many 
ways that you can look for issues.
    Senator Barrasso. There is a funding issue as well because, 
and we heard this from Senator Cardin as well, in order to 
have--these things have started as a ground up. But in order to 
receive Federal funding, you have to seek out other funds. How 
does Wyoming secure resources to leverage the dollars that it 
receives from the EPA?
    Ms. Zygmunt. Yes. Thank you for the question. We do require 
non-Federal match for all of our Wyoming projects. We require a 
40 percent minimum match. As an easy example, if your total 
project costs just $100,000, $60,000 could be 319 funds. The 
sponsor would need to show that 40 percent, $40,000 is coming 
from a non-Federal source.
    Really, one of the most important sources of match in 
Wyoming are from our landowners, either cash contributions to a 
project or in kind services, meaning they volunteer their time 
or they volunteer their equipment toward a project.
    We don't advocate for 100 percent cost share. It is our 
philosophy for the conservation districts working with these 
producers that when we are working with agricultural producers, 
that they have skin in the game, so to speak, that they are 
contributing to the project as well. I think that is a very 
important point to make is that they are contributing their own 
resources and their own time to these projects.
    We have local sources of funding, again the conservation 
districts, their time, if they have a local mill levy that 
provides them support, is a common source of match as well as 
city and county funds. Other State agencies that are critical 
for us showing non-Federal match would be Wyoming Game and Fish 
Department and several other agencies.
    Senator Barrasso. One last question as we talk about the 
319 funds. According to the Government Accountability Office, 
the formula is weighed heavily toward State population, as well 
as the number of acres and agriculture crop production. If we 
were to update the formula, what suggestions would you make to 
ensure that each State receives a fair share of the funding?
    Ms. Zygmunt. If the formula is updated, I think for 
Wyoming, some other factors that we would suggest be considered 
is that in addition to population size, we account for the 
number of tourists that come to Wyoming. We have under 600,000 
in terms of our State's population. In 2018 we had over 4 
million visitations to State parks, over 8 million to our 
national parks, monuments, and historic sites. That is not 
something that is considered, but obviously that level of 
tourism has the potential to impact our water quality.
    I would also recommend that we consider increased weight 
for ranch land and grazing activities in addition to cropland 
acreage. I think as a headwater State, we would advocate for 
consideration of the benefits of protecting water quality at 
the source.
    Finally, the emphasis on population size makes it hard for 
some of our smaller communities. All but two of our cities are 
under 50,000 people. It can be hard for them to find the local 
resources

[[Page 65]]

to address some of these problems, so I think a factor to help 
some of our smaller communities would be good.
    Senator Barrasso. Thanks. Very, very helpful.
    Senator Carper.
    Senator Carper. Thank you. I love it when the witnesses 
say, ``thank you for that question.'' We have some people over 
here that may have three or four rounds of questions. Every 
question, they will say ``thank you for that question.'' Even 
the lousy questions, they will still say ``thank you'' for 
that, so thank you for thanking us.
    I want to look for some consensus here, a little bit of 
agreement. I want each of you to give me maybe at least one, 
maybe two areas of agreement, most important areas of 
agreement, that we could use to improve the 319 Program to 
better address the NPS pollution, problems that our States 
face. Just two areas where you think you agree that are really 
important. Go ahead.
    Do you want to go first, Jennifer?
    Ms. Zygmunt. Yes. So in terms of improved areas of 
agreement, I would have to say our first would be our 
partnership with Wyoming NRCS. That is an evolving partnership, 
but we have common goals. We have had improved dialogue in 
recent years about how to prioritize.
    Obviously, they have many resource concerns beyond just 
water quality. We have had much better conversations with them 
in recent years about how to prioritize water quality or to 
coordinate that with some of their other conservation programs.
    As important in Wyoming, our evolving partnership with the 
Wyoming Association of Conservation Districts, because of our 
reliance on the districts to help connect us to the local 
level, implement these projects. Our partnership with the 
conservation districts is one that we routinely coordinate 
with, maintain, and try to improve over time.
    Senator Carper. All right. Stick to your guns.
    Secretary Grumbles, do you agree with that?
    Mr. Grumbles. Thank you for the questions.
    Senator Carper. Oh, you are welcome, you are welcome.
    [Laughter.]
    Mr. Grumbles. And I really mean it.
    I do agree. I agree with just about everything that Wyoming 
DEQ is saying, although when it come to an allotment formula, 
we may have some disagreements. On the tourism component, 
though, that sounds very exciting as a criterion.
    We certainly--I think there is common agreement that the 
319 Program is a tremendously impactful and wise investment, 
and so that program from a Federal funding perspective should 
grow.
    I also think there is agreement that flexibility is 
absolutely needed with any partnership program that doesn't 
rely on heavy regulatory controls. Partnerships are key, so you 
need to continue to boost innovation.
    I think there is also agreement that for 319, the key is to 
tap into this exciting new world of smarter information 
technology, affordable sensing programs, remote sensing, really 
being be able to target where those dollars are best spent and 
working with agriculture and other sectors where it is really 
needed.

[[Page 66]]

    I would agree that this is a good program. The less 
paperwork, the more streamlining in the application process, I 
think, would also be something that States would uniformly 
agree is a good way to go with this critically important 
Program 319.
    Senator Carper. All right, thank you.
    Ellicott City is a town that my wife and some of her 
friends visited a year or so ago. They went shortly after--I 
don't know if they are 1,000 year floods or 500 year floods, 
that occurred within like, months of each other.
    Mr. Grumbles. More than 500 year floods.
    Senator Carper. Yes, there you go. The folks in Ellicott 
City think that climate change is real, and that it had 
something to do with the flooding that is going on.
    I have been intrigued. Delaware punches above its weight in 
farming. We do a lot of farming in Sussex County, and frankly, 
in Kent County and some in New Castle County.
    I am always looking for ways, as my colleagues know, to 
find ways to do good things for our planet, including 
addressing climate change and create economic value. I am 
intrigued by the ideas of encouraging farmers to use carbon 
capture in the soils that they grow crops in, in order to take 
the carbon out of the air and provide economic opportunity, 
better soils, to grow crops, of all kinds.
    Would you all just comment on that? Is that something that 
you are mindful of, thinking at all about?
    Mr. Grumbles. Yes. First of all, I was caught in that 
Ellicott City flood and had to be rescued, eventually. It is a 
powerful reminder in an urban environment that flood control, 
flood prevention, and increasingly wild weather in this area 
needs to be taken seriously. That is why we are proud that we 
are supporting climate resiliency efforts to help engage not 
only in urban retrofits, but also in smarter planning upstream 
and throughout the watershed.
    Carbon capture sequestration is critically important, 
whether you are wearing the water pollution control hat or the 
climate change hat. Because it is all about healthy soils and 
finding ways to make agriculture more productive and also 
mitigate the risks of climate change by reducing carbon dioxide 
that is in the air through the healthy soil.
    We are putting a real emphasis--Governor Hogan is--on 
healthy soils initiatives, and working with agriculture, not 
against, to be real leaders in reducing carbon pollution and 
increasing the health of our soils.
    Senator Carper. My time is expired, Ms. Zygmunt. Anything 
quickly you could add to this, just briefly?
    Ms. Zygmunt. Yes. I agree, the soil health initiative is 
fascinating. We are seeing farmers in Wyoming that are starting 
to learn more about it, starting to implement techniques. That, 
and other practices I think are a great part of the 319 Program 
in that we are building resiliency from many angles.
    A lot of the projects that we do are going to stabilize 
riparian areas, helping with flood control, off channel water 
that we do with ranchers helps during droughts.
    Climate variability is not new in Wyoming. It is something 
that we deal with regularly; droughts, floods, wildfires. 
Regardless of

[[Page 67]]

the reason, the increased resiliency from our projects, I 
think, benefits for many reasons.
    Senator Carper. Mr. Chairman, I think I keep coming back to 
something that we talked about just a little bit in other 
hearings. There is something good here for farmers, and I would 
like to say it is possible to do good things for our planet and 
add economic value, and this is one way to do that.
    I know farmers can--there are always good stories like 
that, I think our first was. But they can be better stories, 
and we can figure how to help facilitate that in the end.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank both of you for being here today. The 319 Program is 
critical, we talked about, to the water quality of my State of 
West Virginia; under its non-regulatory framework, Federal, 
State, and local governments partner with private groups and 
individuals to implement these programs. We do have a great DEP 
administrator in Austin Caperton, I am glad to know you are 
working with him.
    Senator Carper. Sorry to interrupt. Is he related to Gaston 
Caperton?
    Senator Capito. He is cousins, yes. It is West Virginia, we 
are all cousins.
    [Laughter.]
    Senator Capito. In any event, the two prevalent major 
nonpoint sources in our State are bacteria and then acid mine 
drainage, which we have dealt with, and done very well 
actually. Down the way from where I live, the Coal River Group 
has utilized the 319 grant funding to help homeowners repair 
their septic systems. This is something we have worked on in 
this Committee, with getting people to get their septic systems 
up to quality, so that they don't become a bigger problem or 
age or leak or other things.
    So now, the Coal River, they have a great kayaking 
business; they have great water festivals on the Coal River, 
and it is been a direct, I think, result from the 319 Program.
    In terms of the Chesapeake Bay, West Virginia is one of the 
headwaters of the Chesapeake Bay, and we have worked well, I 
think, to get our total maximum daily load down, thanks to the 
319 Program. It is been very helpful with that.
    On that issue, I would like to ask you, Secretary Grumbles, 
you mentioned working with other States. I have a two-part 
question.
    No. 1, I don't know the answer to this question. Does the 
319 Program allow you to do a regional approach where you could 
apply for funding as a region of States? Or is it mostly State 
to State, and then how do you coordinate that when you are on 
the border? You want to do a project near Hagerstown, 
Martinsburg, Shepherdstown, that type of thing.
    That is my first question. Go ahead.
    Mr. Grumbles. My answer to that is yes. We use the 319 
Program to partner with other States in the Chesapeake Bay 
watershed. So 319 funds for Maryland can be used in a 
partnership program with West Virginia or with other States 
that are above us or beside us.

[[Page 68]]

    Senator Capito. So, does the funding come, like the West 
Virginia 319 Program uses their funding to partner with the 
funding from Maryland, so to speak?
    Mr. Grumbles. Yes.
    Senator Capito. Right. So one of the issues, I think, 
particularly in that region, and particularly with the 
Chesapeake Bay, is there is not a lot of population in the West 
Virginia part. I realize when you get into Maryland, you have 
got more population driven into that area when you start 
getting into the more populated parts of the Bay.
    I think this has been an issue, not an issue, but something 
to look at in terms of funding, because of the heavy impacts 
that a less inhabited part, a more rural part of West Virginia 
is going to have on a more inhabited place, places in and 
around the Chesapeake Bay.
    Would you consider, would you see, is there enough 
flexibility built into the program to be able to help that 
rural community? I think this is what you were talking about in 
Wyoming. I don't know how you see that issue.
    Mr. Grumbles. I think it is important to look at that and 
work with the Committee on trying to build as much flexibility 
into that in the spirit of source water protection and working 
upstream where you get the most bang for your buck and 
leveraging those dollars.
    I just want to make sure the Committee understand that the 
319 Program, when you use the allotment for it--Maryland only 
gets $2 million, but we have put up over $75 million of our 
money into that program, and it just leverages tremendous 
broader partnerships. I think that the key of having 
flexibility, working with local or smaller populated 
communities upstream is where we see some real value 
downstream.
    Senator Capito. In Wyoming, I think you mentioned that you 
have a headwater, you are a headwater State as well. The 
discussion we are having in terms of being able to fund those 
projects in terms of impacts further downstream, do you have an 
opinion on that?
    Ms. Zygmunt. Yes. I would agree with Secretary Grumbles. I 
do think we have the flexibility to address both those issues, 
working with rural communities and having interstate 
coordination as needed.
    In Wyoming, interstate coordination is very important. We 
haven't had as much formal coordination in the 319 Program. I 
routinely talk with my other State counterparts when we have 
got projects on the border with other States, we were letting 
them know what we are doing, seeing if we can encourage 
projects downstream as well. They are obviously very interested 
when we are doing projects upstream.
    I absolutely feel that we have the flexibility that we need 
to work with our other States and to bring resources to our 
smaller communities.
    Senator Capito. I don't have another question, but if I 
did, I would have asked about the capacity building. I think 
this is an issue in all types of water treatment, no matter 
whether you are looking at a nonsource point, or whether you 
are looking at a rural

[[Page 69]]

water system, the technical expertise, I think, is something we 
really need to work on here to spur that on.
    Mr. Grumbles. Can I just simply say, thank you for 
mentioning acid mine drainage. In Western Maryland, we are very 
proud as well, just like West Virginia, of using different 
technologies to reduce acid mine drainage and using 319 dollars 
for that. It is one of our true success stories, and we might 
have learned it from West Virginia, but it is certainly another 
reason to support the flexibility and continued flow of Federal 
support for 319 Programs like acid mine drainage mitigation.
    Senator Capito. Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Thank both of you, as witnesses.
    I think this hearing highlights the importance of the 
Section 319 Program to address nonpoint source pollution.
    Another important program in that regard is the Rural 
Conservation Partnership Program, and I want to thank Senator 
Boozman for working with Senator Capito, Senator Cardin, 
myself, and others to increase the mandatory funding on the 
Farm Bill for that, because that is also vitally important to 
protect watersheds like the Chesapeake Bay.
    I would like to zero in on something Secretary Grumbles 
commented on in his statement, and that is the current state of 
the Chesapeake Bay Agreement, which essentially puts different 
States on what we call a pollution diet, right? The TMDL is the 
total maximum daily load. As part of the Chesapeake Bay 
Agreement, some of the key States agreed that they would hit 
certain pollution reduction targets.
    We just saw from EPA's analysis in December that the State 
of Pennsylvania is falling very far short on some of those key 
pollution reduction targets. There were some alarming 
statements made recently by the head of the EPA's Chesapeake 
Bay Program suggesting that those pollution targets that States 
are supposed to achieve by 2025 are purely ``aspirational,'' 
and that they are not enforceable, which, I think is dead wrong 
when you look at the agreement.
    Secretary Grumbles, my first question is, have you gotten 
any clarification from EPA since that comment was made, as to 
whether they believe that the agreement is enforceable?
    Mr. Grumbles. EPA issued a statement that backed away from 
using that word, aspirational, and underscored that they are 
committed to working with each of the States to meet their 
goals by 2025. We are still very concerned about that. We 
absolutely believe that it is not just aspirational, it is 
enforceable, and it is not just informational, it is integral 
to our success for 2025.
    We understand full well that nonpoint source pollution is 
not regulated directly under the Clean Water Act. But when you 
have a TMDL and the uniqueness of the Chesapeake Bay TMDL, 
which is like no other in the country with these watershed 
implementation plans that are then integrated into the 303(E), 
the continuing planning process, there are some real 
commitments and respon

[[Page 70]]

sibilities and obligations that EPA has to implement the EPA 
Chesapeake Bay TMDL beyond aspirational.
    Senator Van Hollen. I want to make it clear that I think 
all of the members of the Chesapeake Bay States would like to 
work with the State of Pennsylvania to help it achieve its 
targets. We would like to see additional Federal resources, 
whether it is from the Rural Conservation Program or other 
programs go to Pennsylvania to address these issues.
    But ultimately, as of today, Pennsylvania is not on course 
to meet its targets, and we need assurances from EPA that it 
will play its role to ultimately enforce those targets. I am 
drafting a letter with Senator Cardin and others to make it 
clear to EPA that that is our understanding of what it means, 
and that understanding is actually affirmed by the Third U.S. 
District Court of Appeals decision. This has been litigated 
before, has it not?
    Mr. Grumbles. It has. It is over a 5-year period from the 
2013 decision to a 2016 Supreme Court letting it stand. The 
Chesapeake Bay TMDL is lawful; EPA has an important role.
    We are not trying to make the Nonpoint Source Program 
regulatory. It is through the context of the TMDL there is a 
clear and distinct responsibility of the interstate umpire to 
step in and take actions when a State like Pennsylvania is not 
even meeting 75 percent of its commitment. When it is going to 
be hundreds of millions of dollars, and they don't have the 
plan, we need intervention on that front and still work 
together as partners, but we need intervention and leadership.
    Senator Van Hollen. Right. No, I don't think anyone is 
suggesting, just to be clear, making the Section 319 Program a 
mandatory program. This is a distinct agreement under the TMDL 
among the States, and a Third U.S. District Court of Appeals 
judge has already said that this creates enforceable rights and 
obligations.
    I just want to say to you, Mr. Secretary, and to the 
Governor, that if we don't get assurances from the EPA in short 
order, that they are going to enforce these targets and come up 
with a realistic plan for hitting those targets, then we are 
going to have to sue EPA to do its job and enforce the 
agreement. I believe you agree, do you not?
    Mr. Grumbles. Yes. And the Governor agrees. The Governor 
feels very strongly about this.
    Senator Van Hollen. I just think this has come to a boil 
now with the statements that were made recently by the head of 
the EPA's Chesapeake Bay Program, and so this is a moment we 
need absolute clarity and an enforceable program to hit the 
targets in 2025.
    Thank you.
    Senator Rounds [presiding]. Thank you.
    I think now what you will see is part of the 
dysfunctionality within the Senate as we now move in and out to 
try to get down and vote, so we will be passing the 
Chairmanship back and forth and around. Those individuals who 
are leaving are not doing it out of disrespect, but simply 
because they have to go and vote and try to get back in an 
orderly fashion.
    Ms. Zygmunt, like Wyoming, South Dakota is a farming and 
ranching State with a relatively small population, but a fairly 
good

[[Page 71]]

size. Looking at Section 319--and we utilize 319 in South 
Dakota just like you do in Wyoming--I think there has been a 
question as to whether or not there is an appropriateness or 
whether or not there should be modifications to the existing 
formula with regard to two particular items. That is, the 
amount of ag land; that is, within the formula itself, versus 
the weighted credibility given to the population of the 
particular State.
    In many cases, where you find, since this is a nonpoint 
source pollution program, the question is, should this be based 
or should we reconsider the formula funding to perhaps provide 
some additional credibility or weighting to the ag acres that 
are under production? I would like your thoughts.
    If you could re-do the formula; you have been doing this 
for more than 11 years now, in Wyoming. What would you see with 
regard to not so much, would you consider a fairer formula? It 
hasn't been changed since the beginning. What would you see 
with regard to other areas that might be considered as we 
consider a fair distribution formula?
    Ms. Zygmunt. Thank you, Senator, for that question.
    I think I have trouble answering that question nationally, 
in terms of what is fair. I can definitely speak for Wyoming, 
in that yes, agricultural land use is one of our key land uses 
that we need to address nonpoint source from. Most of our 
success stories have involved an agricultural component.
    If I am just looking at Wyoming, and if I had a pot of 
money, and I had to come up with the formula to distribute the 
money in Wyoming, agricultural land use would be one of the top 
factors that I would consider in terms of what needs are where. 
But it is not the only factor, and whether or not it should be 
weighted more or less, I have trouble speaking to that beyond 
Wyoming.
    One of the good aspects of the 319 Program is that we are 
able to address nonpoint sources of pollution from other 
sources. The urban related sources in Wyoming, sometimes there 
is not funding to help communities out with those sources. 
Septic systems are another issue in Wyoming that we can help 
with.
    So agriculture is important in Wyoming. I see that being 
one of our top priorities, but there are other sources in parts 
of the State that 319 has the flexibility to address. Within 
the State, that flexibility is very important.
    Ag as a factor, as I mentioned in my statement previously, 
I would recommend if the formula were reevaluated to add more 
weight to the rangeland, grazing aspect of it, not just 
irrigated cropland.
    Senator Rounds. Thank you. I am also curious. In your 
testimony, you state that partnerships with the agricultural 
community are important for successful nonpoint source 
pollution mitigation. In your testimony, you have also included 
supporting documents highlighting your success in reducing 
levels of selenium in local waters flowing through the North 
Platte River.
    Can you talk a little bit about the success of this 
voluntary program, and nobody is talking about making it a 
mandatory program, but can you talk about how the ag community 
and the rural communities feel about this being a voluntary 
program?

[[Page 72]]

    Ms. Zygmunt. Yes, in Wyoming, absolutely, there is support 
for our program being voluntary. Again, that is what we have 
found to be most effective. It builds the most trust with our 
agricultural community, and again, our conservation districts 
are key in building that link between the 319 Program and the 
local producers. The conservation districts are the folks out 
there talking with producers, talking about the program, 
explaining what 319 is. It is my job to help build that trust 
with the conservation district to facilitate that discussion, 
provide the district with the resources that they need so that 
they can take the next step working with the producers.
    Yes, absolutely, support for the voluntary approach in the 
conservation districts are key to building that trust with the 
ag community. Thank you.
    Senator Rounds. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you. Coordinator Zygmunt, do you 
have much challenge with phosphorus in Wyoming as a runoff that 
affects waterway quality?
    Ms. Zygmunt. It is a newer issue for us. Nutrients, 
including phosphorus, is an issue. It is not one that we have 
done a lot of monitoring for to date. We are in the process of 
developing numeric nutrient criteria, but we are seeing harmful 
algal blooms within the State and are working on a response 
plan for those. We are in the process of developing a bigger 
nutrient program right now. Our focus has been on sediment and 
bacteria, but we are heading that way.
    Senator Merkley. Secretary Grumbles, is that an issue for 
you in Maryland?
    Mr. Grumbles. It is. It is also an opportunity. It is a 
very important issue, as Senator Carper knows, in the Delmarva 
Peninsula, phosphorus management. Governor Hogan is very proud 
of the fact that we updated the science and put in place strong 
regulations to reduce potential phosphorus.
    Senator Merkley. The reason I ask both of you is because 
algal blooms across the country are affecting almost every 
State, most certainly the warmer water. The nutrient runoff is 
causing lots of troubles in our lakes and waterways in Oregon.
    There is some very complex chemistry that is occurring. For 
example, Diamond Lake has a significant phosphorus that was 
driving an algal bloom, but when the invasive tui chub fish was 
removed from the lake, then the zooplankton ate the algae, and 
the water clarity increased to a depth of over 20 feet from 
about 2 or 3 feet. It just cleared up the algae because of 
changing the chemistry, even with the same phosphorus load.
    We have another lake, Klamath Lake, where we have 
endangered suckers. We are having a really complex challenge 
with it, where you have one algae bloom that fixes nitrogen, 
and then a second algae bloom that uses that nitrogen, and it 
produces a range of toxins. It is not really just two algaes; 
there is a whole suite of different algaes, but I am crudely 
describing it. We have a species there, the fathead minnow, 
that has become 80 percent of the mass in the lake.

[[Page 73]]

    As I see these issues, they are so complex. Shouldn't we 
have kind of a national algae team that understands and is 
learning from each and everybody's experience and challenges in 
Wyoming and Maryland and Oregon to kind of help everyone else, 
including ourselves understand these issues better and how to 
address them?
    Mr. Grumbles. Yes.
    Senator Merkley. We don't really have that, at least I 
haven't seen that, like experts at the national level on algae 
that can come to Oregon and help us understand, because we have 
very different challenges in lakes that are not that far apart.
    I think this is the main thing I wanted to address because 
in terms of our nonpoint, we have sediment issues and so on and 
so forth as well, but this is one that is really changing the 
chemistry of the lake. The algae near the surface is creating 
warmer temperatures in the lake. It is also decreasing the 
sunlight going deeper into the lake. Not only does it produce 
toxins, but when it dies, it strips oxygen from the lake.
    We have multitudinous sources of phosphorus, including 
natural background phosphorus, tail water from irrigation 
operations, former wetlands that are drying out and release a 
lot of phosphorus when it rains.
    I am just thinking, in addition to these moneys, it would 
be great to have a real team of experts on the biochemistry of 
lakes and the interaction with aquatic zooplankton, algae, 
invasive species, and so forth to help us address these 
challenges.
    Ms. Zygmunt. Senator, I think that is a very good point. 
Like I said, we are in the initial stages of building an 
improved harmful algal bloom response strategy in Wyoming. We 
have prioritized one of our reservoirs for proactive nutrient 
reduction efforts. It is a very high rec use reservoir, so it 
is very important for us to address the recurring algal blooms 
that are occurring there.
    As one example, the University of Wyoming has put together 
a team that hopefully will get some funding to do a detailed 
study on that reservoir to understand that complexity and help 
answer some of the questions particularly that we are getting 
from stakeholders about with the blooms are occurring and the 
best way to address them.
    It is a complex issue, and I think there is definitely a 
need to have support for technical assistance to understand it 
so that we can mitigate it most effectively. We are seeing some 
assistance through the University of Wyoming, and we are also 
attending regional conferences when they become available. I 
know upcoming in February, there is a Midwest conference on 
harmful algal blooms where we will be participating to learn 
from other State resources.
    Mr. Grumbles. Senator, I would just simply add, I know 
there has been a national effort on harmful algal bloom 
research and control. Perhaps what you are suggesting is there 
needs to be more at the national, Federal level of the many 
excellent research scientific agencies that are there.
    I can tell you that from a regional and State perspective, 
we absolutely agree that nutrients, particularly phosphorus, 
need good strong science and integrated partnerships and find 
ways to reduce unacceptable or excess levels of phosphorus and 
repurpose that

[[Page 74]]

phosphorus and use voluntary as well as regulatory tools, not 
just in agriculture, but in the wastewater community through 
enhanced wastewater treatment technologies, but not lose sight 
of the importance of the phosphorus loading, which is a big 
part of our Chesapeake Bay challenge.
    Senator Merkley. We are looking at how can you cost 
effectively strip algae, harvest algae from the lake, removing 
that algae and the phosphorus. We are looking at how much can 
the wetlands reduce it. We are looking at the whole range of 
things.
    What has really struck me is, for example, in aquarium 
studies of how toxins affect the fish, we only have limited 
toxins that are relevant to the range of toxins produced by the 
algae to even be able to test, so there is a big scientific gap 
here that we need to focus more on.
    I will just close by noting that the amount of funding for 
this program has gone down significantly over time, and it 
seems to be that the challenges are getting greater. Maybe we 
should be increasing funding for it.
    Thanks.
    Senator Barrasso [presiding]. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and we appreciate 
you all being here very, very much.
    Ms. Zygmunt, the State of New Hampshire in comments 
collected by the Association of Clean Water Administrators 
suggested that an audit should be performed on reporting 
requirements to detect any redundant reporting done by the 
States to EPA. Do you believe that there are areas of the 319 
process that can be streamlined, and can you give some examples 
of that, perhaps?
    Ms. Zygmunt. Yes. Thank you, Senator. Overall, I feel like 
we have worked in recent years to evaluate reporting 
requirements. Right now, I don't feel like the reporting 
requirements that we have as a program are onerous.
    Senator Boozman. Good.
    Ms. Zygmunt. I have worked at the next step to help my 
project sponsors with that reporting step. If I make their job 
easier, it makes my job easier, it makes the EPA's job easier. 
It is definitely a team effort.
    Right now, I don't have any immediate suggestions for 
streamlining reporting. I think it is an ongoing process.
    EPA is coming up with some very good tools, such as ``How's 
My Waterway,'' which will be an excellent tool to get more 
information to the public about water quality. It will pull 
information from the main data base that we use to track our 
319 projects, which is good, but it will require us to go and 
make sure that we are keeping our data entry up to date, making 
sure that it is thorough and sound and it is what we would want 
to present to the public.
    I think there are some upcoming requirements that we just 
need to have conversation with EPA about in terms of how to 
make that most effective.
    Senator Boozman. Very good. That is good to hear.
    Secretary Grumbles, it is good to see you. The Secretary 
was one of my former predecessors, is that right? Former 
predecessor?
    [Laughter.]

[[Page 75]]

    Senator Boozman. Anyway, a Congressman that he served under 
and worked for, and I just want to compliment you. It is so 
good to hear the two Senators from Maryland be here and 
compliment you on your hard work. The fact that you are so well 
respected on both sides of the aisle, that is a great example 
for all of us.
    We do appreciate all you do. I know that you work very, 
very hard. Nobody understands the issues better than you, and 
the fact that you make it, especially with these water issues 
that are so, so very important. These are areas that we can 
find common ground on. We all want to get it done in a logical 
way, and you have really set the pace in that regard, so give 
yourself a pat on the back.
    I have got a quick question for you because I have got to 
run and vote. Aside from providing additional money to the 319 
Program, how can we leverage more funding for nonpoint source 
pollution projects?
    Mr. Grumbles. Thank you, Senator. The key to innovation is 
being willing to find ways to bring in additional partnerships 
and market based solutions, one of the best ways to leverage 
additional funding through the 319 Program.
    We should get a boost in funding, but the best way to 
leverage is by using market based strategies, creating 
incentives, such as water quality trading or pay for 
performance contracting, where with the knowledge that is 
gained through the 319 Program and the science of the 
technologies of being able to see, wow, we will get some really 
good progress in water quality, that can then help create 
incentives for unregulated players to come to the table and 
come up with ways to reduce the pollution, whether it is acid 
runoff from mining or excess phosphorus or nitrogen or algae or 
green infrastructure.
    The best way to leverage is to invite more partners to the 
table and reward them through market based strategies like 
water quality trading or pay for performance contracting.
    Senator Boozman. Very good. Thank you, and we do appreciate 
both of you very, very much.
    Senator Barrasso. Thanks, Senator Boozman.
    Senator Gillibrand.
    Senator Gillibrand. Mr. Chairman, thank you for holding 
this hearing today.
    Clean water is a basic human right, and assuring that all 
Americans have access to it for their families must be a top 
priority for all of us. New York State has a strong record when 
it comes to protecting our water. New York City has a water 
supply providing unfiltered, clean drinking water for 9 million 
New Yorkers.
    However, our State continues to face the challenge of 
ensuring that our water stays safe and clean. Harmful algal 
blooms and other water quality problems associated with 
nutrient runoff and fertilizer use threatens our lakes.
    We are spending record amounts of money to clean up the 
Long Island Sound and reduce its nitrogen load. New York State 
is also committed to partner to doing our part to clean up the 
Chesapeake Bay, and we will meet the 2025 targets in New York's 
watershed implementation plan.

[[Page 76]]

    One of the biggest water quality challenges we face has to 
do with the growing problem of PFAS contamination. That is an 
issue that is affecting New York, the whole country, and it is 
creating great concern.
    I am very concerned about the prospect of PFAS chemicals 
entering our water bodies through nonpoint source pollution due 
to the use of sludge from water treatment facilities as a 
fertilizer on agricultural croplands. We are essentially taking 
PFAS pollution from point sources and turning it into nonpoint 
source pollution through agricultural runoff and groundwater 
contamination. This hurts our farmers, who now must deal with 
PFAS contamination on their land. It potentially harms the 
public by contaminating food and water.
    This is happening in States from Maine to Michigan to New 
Mexico.
    Secretary Grumbles and Ms. Zygmunt, are your States taking 
any action to detect and address nonpoint source pollution from 
PFAS?
    Mr. Grumbles. Well, Senator, I know that for us in Maryland 
and the Maryland Department of the Environment, we are looking 
very carefully at potential biosolids land application of 
sewage sludge as a potential source. Our Water Office and our 
Land and Management Office are looking at this.
    The first step is to see, are there indications of a 
problem. Because we are, in working with other States like New 
York, or States around the country, know that there is growing 
evidence of real concern about PFAS, and not just from a point 
source, but from nonpoint sources.
    So it is on our radar screen, and we are committed to 
learning more and partnering for pollution prevention.
    Ms. Zygmunt. Thank you, Senator. My short answer is that 
no, PFAS has not made its way to our nonpoint source program at 
this time. We have other staff in our water quality division 
that are working on PFAS issues. It is beyond my area of 
expertise at the moment, but I would be happy to get more 
information for you from the staff in terms of what efforts 
they have made and where they are at.
    Senator Gillibrand. Great. And what can be done on a 
Federal level to support more awareness and action at the State 
and local levels to address the issue?
    Mr. Grumbles. I certainly can say as a member of the 
Environmental Council of the States, ECOS, which is all the 
State directors and commissioners on environment, that every 
single meeting our group has from the director of Wyoming DEQ, 
to our State, to New York, Basil Seggos, the commissioner, we 
talk about and develop strategies and compare notes on 
regulatory tools and science based tools.
    The answer is a continued, strong commitment on Federal 
agencies like EPA to keep moving forward on the science and the 
communication and the necessary regulatory tools to reduce the 
threat from PFAS chemicals.
    Senator Gillibrand. What impacts do you anticipate that 
increased precipitation will have on the amount of pollution 
entering

[[Page 77]]

our water bodies and our ability to implement measures to 
address pollution?
    Mr. Grumbles. This is a question separate from PFAS, 
although, everything can be connected.
    Senator Gillibrand. Correct.
    Mr. Grumbles. Well, as Jennifer mentioned, and as I 
certainly mentioned in our testimony, a key component of a 
successful water program is resilience and taking into account 
weather and precipitation.
    New York participates in the Chesapeake Bay TMDL, and I am 
proud to say that we all have agreed to factor in climate 
resiliency, specifically because it becomes--it is a multiple--
the increased precipitation in some regions, like here in the 
Mid-Atlantic, including snowmelt. Basically precipitation 
becomes a threat multiplier in terms of pollutants that are on 
the land, urban, suburban, rural.
    We are factoring in a narrative and numeric criteria to the 
Chesapeake Bay pollution budget specifically dealing with the 
anticipated increase in precipitation in our region.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you, witnesses.
    Senator Barrasso. Thank you, Senator.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chairman.
    I have been a lifelong conservationist. I have been worried 
about the state of the air quality and water quality since I 
have been a kid. I was able to move back to my hometown and 
actually practice what I preach.
    When it comes to nonpoint sources, we employ riparian 
buffers, cover crops, no-till farming, a lot of different 
methods, and I think somebody earlier mentioned that farmers 
are the true stewards of the land.
    I also look at air quality and water quality to where air 
quality, we make great strides, but we are largely at the mercy 
of what the rest of the world does. When it comes to water 
quality, we can really have impact within our own country.
    When it comes to, I have heard, first of all, Section 319, 
I think it is worked very well. The skin in the game that you 
mentioned is important.
    What is the current state of the health of waterways? And I 
would like you to also talk about point source and nonpoint 
source, and tell me what your opinion is from where it is now 
versus what it was 10 to 15 years ago. I would like to hear 
from both of you on that.
    Mr. Grumbles. What an awesome question. Thank you. EPA 
definitely and other Federal agencies need to follow up on that 
question about national standards and trends. I can say without 
hesitation that our Nation has made tremendous progress on 
water quality over the last several decades, unbelievable 
progress, in terms of reducing toxic pollutions and 
conventional pollutants. So we are on the right track.
    But I can also say without hesitation that in some areas, 
it can be increasing, localized increasing urbanization, or 
some pollution source that isn't adequately controlled or 
managed, or with emerging evidence of contaminants that hadn't 
previously been focused

[[Page 78]]

on that are problems. There is a mission not yet accomplished, 
for sure.
    We often say, and the point source, the regulated, 
particularly industrial and municipal, that we have made 
tremendous strides. Maryland has absolutely been a leader in 
reducing pollution from industrial and wastewater treatment 
plants with very costly technologies to reduce the nutrients 
and the pollutants.
    But we also know that there are some increasing trends with 
new contaminants or chemicals, as the Senator from New York 
mentioned, that are new challenges for us because our science 
is getting better, our ability to detect challenges.
    On the nonpoint source front, the story is still true, that 
because of the diverse and diffuse nature of the pollution, 
that is going to continue to be a challenge, and we just need, 
more than ever, new tools, not just regulatory tools, but 
partnership tools that are better local and place based. It is 
really important to not declare victory on the water quality 
front, and with climate change, the more extreme weather 
conditions, that brings a whole lot of additional challenges 
that weren't as big in the past.
    I would just conclude with, we are making real progress, 
but we absolutely need to focus more and more on nonpoint 
source runoff and smart, market based strategies and ways and 
also emerging contaminants of concern.
    Senator Braun. Jennifer, briefly comment, because I want to 
come back to you with a question before my time expires. Go 
ahead.
    Ms. Zygmunt. Thank you, Senator. Yes, speaking for Wyoming, 
overall, we are blessed with great water quality. We have our 
challenges. I think we are seeing improvement, as shown by our 
success stories.
    As Secretary Grumble said, we have those emerging 
contaminants coming up that cause us to adapt and learn new 
techniques and new methods to deal with them.
    We also see changing land use, and that is something that, 
in Wyoming, causes us to adapt as well. In some parts of the 
State, we are seeing a lot of rural subdivisions, so whereas 
previously, maybe you worked with one or two large ranchers, 
now we are working with maybe 50 small acreage landowners.
    It is changes like that that continually keep you 
challenged, keep you on your toes, and another reason why we 
need flexibility in the program to adapt to those over time. I 
think we are seeing improvement. One of the indicators that I 
have seen over my 11 years in this program is that I see an 
accelerated buy in into new ways of doing things. People are 
open to new ideas. Ranchers and farmers are more willing to do 
something different than they have done in the past, to see if 
it will improve resources and improve the agricultural 
production.
    Senator Braun. Very quickly, and this is a particular 
question. Riparian buffers are, to me, a poor replacement for 
forestation that would go deeper into the watersheds. Can we 
ever have meaningful impact on water quality, especially in 
agricultural States, if we are just looking at riparian buffers 
versus what has caused it over time to where we have deforested 
across main watersheds?
    You start, and then give me a quick follow up.

[[Page 79]]

    Ms. Zygmunt. Sure. I believe riparian buffers are a 
critical management practice. They are a very small part of 
Wyoming, but they are critical for water quality and for 
wildlife habitat. We see a lot of benefits when we improve our 
riparian areas to water quality, providing a filter for runoff 
before it reaches a stream, providing shade to reduce 
temperature within the stream.
    Riparian buffers are a critical practice of what we do in 
Wyoming. So yes, I do think they are a great practice.
    Mr. Grumbles. I think your question, obviously, prompts the 
response of, we have got to have a broader, more holistic 
approach to forest conservation, looking up into river basins 
for green infrastructure conservation and protection and source 
water protection. We get into trouble when we rely solely on 
end of pipe or edge of field solutions. But riparian buffers 
are very important, a critically important tool; they just 
can't be the only tool.
    Senator Braun. Thank you.
    Senator Barrasso. Thanks, Senator Braun.
    This was very interesting and informative.
    Fourteen Senators showed up. We are in the middle of a 
vote, so people have been coming and going, but that is quite a 
successful attendance, which shows the importance of what you 
are doing.
    No one else is here to ask questions, but they may submit 
written questions, so you can expect those.
    The hearing record is going to be open for the next 2 
weeks.
    We are very grateful for your time and your testimony. 
Very, very helpful on this very important issue.
    The hearing is adjourned.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
